FEDERAL ELECTION COMMISSION

OFFICE OF INSPECTOR GENERAL




        FINAL REPORT

INSPECTION OF THE COMMISSION’S
  WESTLAW DATABASE SERVICE




             JULY 2001

         ASSIGNMENT 01-05

                                                TABLE OF CONTENTS





DESCRIPTION                                                                                                               PAGE

Background..........................................................................................................................1


Objectives, Scope, and Methodology………............……...............….............................…2


Inspection Results…….......................................................................................….............2


           Management of Westlaw User Accounts................................................................3


          Review of Financial Transactions............................................................................5


           Advance Payments..................................................................................................8

                                                Background

The Office of Inspector General (OIG) initiated an Inspection of the Westlaw database
service after learning that a separated employee’s Westlaw account remained open
several months after the employee left the agency. The OIG expanded the Inspection
                                                                        1
to review the payment process for the service after discovering improper duplicate
payments had been made to the Westlaw vendor.

The Federal Election Commission (FEC), established in 1975, is an independent
regulatory agency that enforces and administers the Federal Election Campaign Act
(FECA). Enforcement of FECA includes the following: facilitating public disclosure of
finance activity; providing information and policy guidance to the public and elected
officials; encouraging voluntary compliance with the disclosure and other requirements
of the Act; and enforcing the statute through audits, investigations, and civil litigation. In
addition, the Commission manages the public funding programs for Presidential
campaigns and conventions. The FEC is located in Washington, D.C., and has
approximately 338 permanent and temporary employees.

The FEC contracts with West Group, a division of the Thomson Corporation, to receive
the Westlaw research service. Westlaw provides FEC staff with on-line access to legal
and business databases, information such as Federal court decisions, Congressional
information, and Federal statutes.

Management approves access for Commission staff whose jobs would benefit from the
Westlaw database service, such as attorneys in the Office of General Council (OGC).
The Westlaw contract amount for fiscal year 2001 is $130,608, which generally provides
FEC users unlimited access to databases designated in the “fixed rate” plan. Premium
databases, not included in the “fixed rate” plan, are also accessible to all FEC Westlaw
users, and result in additional charges to the FEC.


Exhibit 1-Westlaw.com Internet Login Screen                             Individuals with active Westlaw
                                                                        user accounts are able to
                                                                        access the Westlaw service
                                                                        virtually anywhere; at work,
                                                                        home, or on travel status. The
                                                                        Westlaw service is accessible
                                                                        using a personal computer (PC)
                                                                        with access to the Internet.
                                                                        Primarily, FEC Westlaw users
                                                                        access the service using the
                                                                        West Group software
                                                                        Westmate, installed on FEC
                                                                        computers. In addition, user
                                                                        accounts can also access the
                                                                        Westlaw service using a Web
                                                                        based service on the Internet.
                                                                        [See Exhibit 1]


1
 The General Accounting Office defines improper payments as payments that should not have been made or were
made for incorrect amounts. U.S. General Accounting Office, Billions in Improper Payments Continue to Require
Attention, (GAO-01-44, page 5, October 27, 1999).
Therefore, as long as a user has access to the Internet, regardless of location, the
Westlaw service, including premium services, are accessible with a valid user account.

The Office of General Counsel’s Library Office is responsible for administration of the
FEC’s Westlaw program. Management of the Westlaw program by the Library includes
the following responsibilities:
• Negotiation of the annual contract fees with the West Group vendor.
• 	 Training of Commission staff on the use of the Westlaw service, or coordination of
    training provided by West Group.
• Notifications to add or remove employee Westlaw user accounts.
• 	 Review and approval of receiving reports to ensure proper billing and to enable the
    payment for services received.


                        Objectives, Scope, and Methodology

The objectives of the Inspection were to:

(1) Ensure that the Westlaw accounts of separated staff are properly canceled; and

(2) Review the improper Westlaw financial payments to determine the cause and

    evaluate the payment process.

The OIG reviewed the following documentation in order to achieve the stated Inspection
objectives:
• Westlaw purchase orders, receiving reports, and invoices;
• Active Westlaw user list and Westlaw database usage reports;
• FEC employee clearance forms for separated staff;
• FEC current employee list and separation dates of prior staff;
• U.S. Department of Treasury Financial Manual;
• 31 U.S. Code, section 3324(d), Advances; and
• 	 Decision of the Comptroller General of the United States, Authority to Make Advance
    Payments for Technical Support Associated with Computer Software Packages, B-
    256692, June 22, 1995 (1995 Westlaw 373859).

The OIG communicated with the following internal and external individuals to conduct

the Inspection:

(1) West Group vendor employees;

(2) FEC Accounting Officer;

(3) FEC Administrative Officer; and

(4) FEC Library Director.


The OIG Inspection was conducted in accordance with the President’s Council on

Integrity and Efficiency’s Quality Standards for Inspections.



                                  Inspection Results

Overall, the OIG found weaknesses in the oversight of the Westlaw service by the
Library Office responsible for the program. A pattern of improper payments occurred
over a four year period. Specifically, four duplicate payments were approved for
payment, totaling approximately $33,772. All of the duplicate payments were
subsequently recovered from the vendor after discovery of the improper payments.



                                           2

In addition, the OIG found inadequate management of user accounts. Over 42% of all
current accounts were assigned to separated FEC staff. This weakness created an
unnecessary financial exposure to the FEC due to the potential for separated staff to
access premium databases billed to the FEC. The OIG review revealed user accounts
of former employees were accessed after the employees’ separation from the FEC;
however, all access occurred in the “fixed rate” databases; therefore no additional direct
expense was found as a result of the unauthorized access.

The OIG concluded the weaknesses were the result of inadequate internal controls of
the Westlaw program. The OIG also concluded the four improper duplicate payments
were inadvertent errors, and not the result of fraud or abuse.


Management of Westlaw User Accounts
The OIG initiated this Inspection after learning that a separated employee’s Westlaw
account remained open several months after the employee left the agency. The
Inspection included a review of all current Westlaw user accounts to identify whether an
appropriate process is in place to ensure Westlaw user accounts are canceled upon an
employee’s separation from the FEC. Current Westlaw user accounts found assigned
to separated staff were further reviewed to determine whether the accounts were
accessed after the employees left the FEC, and whether the access resulted in
unauthorized charges billed to the FEC.

The OIG contacted the Westlaw vendor and obtained a list of all current user accounts.
This list was compared to reports of current and separated FEC staff to identify whether
current Westlaw accounts were assigned to separated staff. Westlaw reported a total of
262 current FEC user accounts. The OIG found 111 of the 262 accounts, or 42%, were
assigned to former FEC staff. Several current accounts were assigned to staff that
separated from the Commission as far back as 1992. A further review of the 111
separated staff accounts revealed six users’ accounts had been accessed subsequent
to the employees’ separation.

Account activity on three of the six accounts accessed after the employee separations
were the result of an automatic Westlaw search capability called Westclip. Westclip
allows a user to configure the Westlaw service to automatically search for keywords at a
predetermined frequency (daily, weekly, etc.). For example, the Westclip service could
search the Westlaw databases for the keywords “Federal Election Commission” on a
daily basis. The user would then be notified by the Westclip service when the keywords
appeared in one of the databases selected, such as a recent court case.

Apparently, the three separated employees did not cancel the Westclip service upon
leaving the FEC. Since the employees’ accounts were not properly canceled upon their
separation, the Westclip searches continued. In one instance, the Westclip service was
active on an account for approximately eighteen months, involving over 4264 Westclip
searches. Fortunately, the Westclip service is included in the FEC fixed rate, and did
not result in any direct additional cost to the FEC.

Three other Westlaw accounts were accessed after the employees’ separation. None of
the three resulted in additional charges to the FEC. The OIG could not determine
whether the separated employees were the individuals who actually accessed the
accounts. It is possible current employees who inherited the personal computers of the
separated employees, may have been able to use the separated employees’ accounts.



                                            3

Exhibit 2-Westmate Login Dialogue Box
                                                      The Westlaw software Westmate
                                                      used by the FEC allows users to
                                                      configure the software to remember
                                                      their username and login password
                                                      so that the user does not have to re-
                                                      enter the information each time the
                                                      service is used. [See Exhibit 2]
                                                      Therefore, the separated employees
                                                      may have used the remember
                                                      password option, allowing anyone
                                                      with access to their PC the ability to
                                                      logon as the separated employee.



The remember password capability is not recommended since anyone with physical

access to a user’s PC could access the service using someone else’s account.


The failure to cancel Westlaw accounts of former employees created an unnecessary

financial risk to the Commission. All current user accounts have access to both the

“fixed rate” and premium Westlaw databases. As a result, it would have been possible

for a separated employee to access premium databases and incur costs charged to the

FEC.


Employee Clearance Process

The Library Director indicated a possible contributing factor for the failure to cancel

Westlaw accounts was inadequate notification of separating employees. Without such

notification, the OIG agreed it would be difficult for the Library to maintain an adequate

subscriber list of current staff.


The OIG performed a limited review of the FEC’s employee clearance process to
determine whether the statement by the Library Director had merit. The FEC has a
clearance process, administered by the Personnel Office, to ensure employees
separating from the Commission have satisfied all obligations and surrendered all
government property upon separation from the FEC. Several designated divisions are
required to date and initial on an employee clearance form for each separating
employee. Government property, such as building keys, FEC credentials, and Library
materials are required to be returned to the appropriate division. The employee
clearance form also serves as a notification to divisions. For example, the notification is
necessary for the Data Systems Development Division so that computer passwords are
disabled to prevent access to the FEC computer system by a separated employee.

Based on the OIG’s review of the employee clearance process, and an examination of
clearance forms for separated staff with current Westlaw accounts, the OIG was unable
to find sufficient evidence to support the Library Director’s assertion that inadequate
notice of separating employees to the Library had occurred.

Conclusion
During the Inspection, the OIG conveyed to the Library a concern for the active
accounts of separated employees. The Library Director stated the accounts of
separated employees had not been canceled because the responsibility has “not been a
priority” of the Library. Based on the OIG’s discussions with the Library Director, the
OIG believes the Director did not fully understand the potential for unauthorized access
and additional charges that could occur as a result of the failure to cancel the user
                                             4

accounts of separated staff. The OIG would have serious concern if the Library Director
had a full understanding of the potential financial exposure and continued to believe the
responsibility should not be a priority of the Library.

The Library Office, during the Inspection, took appropriate steps to cancel all user
accounts of separated employees and agreed to cancel user accounts of separating
employees in the future. As an additional measure, the OGC informed the OIG the
Library Office will provide quarterly reports to the General Counsel detailing Westlaw
user account cancellations of departing employees to ensure the prompt cancellation of
accounts.

Suggestion
The OIG suggested to the Personnel Office Director that a section be added to the FEC
employee clearance form to require the signature and date of Library staff for
cancellation of Westlaw user accounts upon an employee’s separation from the FEC.
The Personnel Director agreed to make the change.


Review of Financial Transactions
During the Inspection, the OIG discovered a pattern of improper duplicate payments
made to the Westlaw vendor. To determine the extent and cause of the improper
payments, the OIG reviewed the Westlaw payment history and documentation for fiscal
years 1998 to 2001, through March 2001. The OIG also conducted meetings with the
Library Director, Accounting Officer, and Administrative Officer. West Group employees
were contacted for additional information.

Based on a review of Westlaw payments and supporting documentation, the OIG found
four improper duplicate payments had been made in three of the four FYs reviewed
(1998, 1999, and 2001). A fifth invoice in FY 2001 was improperly approved for
payment by the Library Director, but did not obtain the necessary approval by the
Administrative Officer for payment and therefore was not paid.

Background
The FEC’s vendor payment approval process involves several offices. The requisition
office, for example the Library, orders goods or services for their individual division/office
or the Commission as a whole. The requisition offices are required to perform an
administrative review of invoices for payments to be processed. Vendor invoices are
normally first received at the FEC by the Accounting Office. The Accounting Office then
matches the invoice with the original purchase order and a blank receiving report to be
completed by the requisition office. The documents are then forwarded to the
requisition office for review. To enable the FEC to pay the vendor, the requisition office
must complete the receiving report acknowledging proper receipt of the goods or
services. Acceptance by the requisition office includes two primary requirements: (1)
assurance the item(s) ordered have been inspected and are consistent with the original
order; and (2) confirmation the vendor has not already been paid for the goods or
services. Upon acceptance of the receiving report, the requisition office forwards the
completed receiving report, along with copies of the purchase order and invoice to the
Administrative Office. The Administrative Officer and Certifying Officer then perform
additional reviews of all documentation associated with the invoice to ensure a proper
and legal transaction has occurred allowing for payment of Federal funds.




                                              5

Three primary situations may occur in the receipt of goods or services. A full receipt of
goods and services may occur, in which case, all goods or services ordered have been
received and the payment may be made to the vendor. A full receipt is normally
associated with a regular purchase order, for example an order for a computer. The
regular purchase order form establishes the terms of the order for goods and services.
Funds are then obligated, or set aside, at the time of the order. Once a valid invoice is
received and approved, the set aside funds are used to pay the invoice.

A partial receipt of goods or services may also occur. The requisition office must
acknowledge partial receipt on the receiving report, and the appropriate amount to be
paid to the vendor. Partial receipt of goods or services is often associated with a
blanket purchase agreement (BPA), a type of reoccurring open purchase that does not
require a new purchase order form to be completed each time a similar item is
purchased. Monthly services, such as the Westlaw service, are a type of order that can
be purchased using a BPA. Accounting for a BPA involves the obligation of funds, and
then, as partial receipt of the order for goods and services are delivered, portions of the
original set-aside funds are used to pay the vendor until eventually all or most of the
funds are expended. BPAs require the requisition office to maintain an accurate and
ongoing record of the payments, including the original order amount, and the
subsequent receipt and payment for the partial goods and services. Effectively
managed, this process provides a mechanism to decrease the likelihood invoices are
paid twice.

Lastly, a rejection of an invoice may occur, such as the non-receipt of goods or services,
or an incorrect invoice. Rejection of an invoice requires the requisition office to contact
the vendor to discuss the invoice.

Finding
Three of the four fiscal years (FYs) reviewed utilized a BPA to procure the Westlaw
service; 1998, 1999, and 2001, the same years duplicate payments occurred. The
following is a summary of the duplicate payments:

                Fiscal Year                    Duplicate Payment(s)
                   1998                        2 payments, totaling $13,650
                   1999                        1 payment, $9,214
                   2000                        None
                   2001                        1 payment, $10,908
                                               Total $33,772

The OIG concluded the duplicate payments were the result of ineffective internal
controls in the Library Office to monitor payments. The OIG concluded the Library did
not have a system in place to track ongoing, open purchase orders.

The Office of Management and Budget (OMB) Circular A-123, Management
Accountability and Control, requires the establishment of internal controls by Federal
agencies to reasonably ensure that (i) programs achieve their intended results; (ii)
resources are used consistent with agency mission; (iii) programs and resources are
protected from waste, fraud, and mismanagement; (iv) laws and regulations are
followed; and (v) reliable and timely information is obtained, maintained, reported and
used for decision making.




                                             6

Internal controls are an integral part of managing the FEC and provide reasonable
assurance the Commission will operate in an effective and efficient manner, and comply
with applicable laws and regulations. In a broad context, internal controls are the
methods, procedures, and safeguards adopted by management to ensure that its goals
are met. Examples of internal controls include the physical control over vulnerable
assets, such as laptop computers, and the segregation of key duties and responsibilities
among different people to reduce the risk of error or fraud.

A standard internal control procedure contained in A-123 requires the accurate and
timely recording of transactions by management. According to A-123, “transactions
should be promptly recorded to maintain their relevance and value to management in
controlling operations and making decisions. This applies to the entire life cycle of a
transaction or event; from the initiation and authorization, through its final classification
in summary records.”

The Library Office did not have an effective system in place to monitor and record the
events related to the open purchase orders. An effective system would have enabled
the Library to account for the original order, or obligation, and also subsequent
approvals for payment of the monthly/yearly invoices. As a result, upon receipt of an
invoice for acceptance, the Library Office would be able to review a record of previously
approved payments, and recognize whether the monthly or yearly payment had already
been approved for payment.

The Library Director informed the OIG during the Inspection that the Library did not have
a system in place to monitor the open purchase orders.

Recommendation
The Library Office should develop an adequate system, in consultation with the

Accounting Office, to monitor open purchase orders. For example, a computer

spreadsheet could be developed to monitor open purchase orders; including obligations

of funds, and partial/final receipt of goods or services.


Management Response

The Office of General Counsel agreed with the finding. The OGC also stated “the

monitoring of vendor payments is a dual responsibility - that of the requisition office and

the Accounting Office.” In addition, the OGC believes that a new FEC accounting

system to be installed shortly by the Accounting Office and a recent training workshop

held by the Administrative Division on the proper procedures for completion of receiving

reports will enable the Commission to avoid making duplicate payments to vendors.


OIG Response
The OIG acknowledges the Accounting Office also has an important role in preventing
duplicate payments. The new accounting system is expected to add additional controls,
such as the ability to identify the receipt of duplicate numbered invoices in order to
prevent duplicate payments. This type of automated control, in combination with the
proper monitoring of open purchase orders by the requisition office, should reduce the
likelihood of duplicate payments.




                                               7

Advance Payments
In addition to the inspection of improper duplicate payments, the OIG also reviewed the
FEC’s practice of making advance payments prior to full receipt of the Westlaw service.
A review of the financial payments for FYs 1998-2001 revealed advance payments in
each of the four FYs. Rather than pay on a monthly basis as invoices are received, the
FEC chose to pay the full cost of the annual Westlaw service, usually by the third month
of the twelve-month service period.

Federal law provides an exception to the general requirement that payments to vendors
be made only after goods and services have been received. 31 U.S. Code, section
3324(d)(2), states the head of an agency may pay in advance for charges for a
publication printed or recorded in any way for the auditory or visual use of the agency.
The Comptroller General of the United States concluded in a 1995 decision that on-line
databases fall under the definition of section 3324(d)(2), acceptable charges for
advance payments. Therefore, the advance payments were made consistent with
Federal law. Although the payments did not violate Federal law or regulation, the OIG
suggests a further analysis by management is warranted to determine whether the
Westlaw advance payments are in the best interest of the FEC and the Federal
government.

According to the Accounting Officer, the FEC chose to pay for Westlaw services in
advance to decrease the chance of making a duplicate payment, and because “twelve
payments instead of one is not cost-effective from an administrative standpoint.” In
addition, in FYs 1999 and 2000, the FEC received a 2% cash discount for payment in
advance. However, in FY 2001, the FEC did not receive a cash discount, but did pay in
advance.

According to the Accounting Officer, a more favorable rate was obtained for FY 2001 in
which the cash discount was not available. In addition, the OGC asserted that the FEC
negotiated access to additional Westlaw databases in lieu of a 2% discount for advance
payment, an arrangement the OGC believed to be advantageous. However, the OIG
found no evidence based on written documentation provided by the Library Office or
obtained from the Westlaw vendor to indicate the more favorable rate or added Westlaw
services were based on a requirement that payment be made in advance. The vendor
informed the OIG that the FEC had the option in FY 2001 to pay in advance, or on a
monthly basis. Obviously, from the vendor’s business standpoint, it is preferable to
receive the payment in advance.

The Department of Treasury, Financial Management Service’s supplement to the
Treasury Financial Manual titled: “Cash Management Made Easy,” provides guidance to
Federal agencies on cash management. Proper cash management by the Federal
government results in the reduction of Federal borrowing, and savings of interest on
Government funds. The guidance provides that Federal agencies must process
payments of government obligations in a timely manner, neither early nor late.

The OIG agrees with the general concept of the administrative burden on processing
twelve payments rather than one and the avoidance of duplicate payments. However; in
the case of the FY 2001 payment, where no cash discount was provided for the advance
payment, and considering the significant amount of the payment ($130,608), the OIG
suggests further analysis by management on whether this practice is advantageous to
the government. In addition, implementation of a process to lessen the likelihood of
duplicate payments will alleviate one of the two reasons given by the Accounting Office
for the advance payments.


                                           8

